U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Riley Briones, Jr., No. 19-720
Dear Mr. Harris:
The government filed a petition for a writ of certiorari in the above-captioned case on
December 6, 2019. Following this Court’s decisions in Miller v. Alabama, 567 U.S. 460 (2012),
and Montgomery v. Louisiana, 136 S. Ct. 718 (2016), the district court in this case sentenced
respondent to a discretionary life-without-parole sentence for the first-degree felony murder of a
restaurant employee 23 days before his eighteenth birthday. Pet. App. 65a-67a. The en banc court
of appeals invalidated that sentence, viewing “Miller’s central inquiry” to require “determining
whether a defendant is permanently incorrigible,” and concluding that the district court had not
“meaningfully engaged” in that inquiry. Id. at 15a-16a (emphasis omitted). Because the en banc
court of appeals’ decision turned on its view of Miller’s scope, and because the proper scope of
Miller was before this Court in Mathena v. Malvo, No. 18-217, the government asked this Court
to hold the petition for a writ of certiorari in this case pending its decision in Malvo and then
dispose of the petition as appropriate in light of that decision. Pet. 9.
On February 26, 2020, this Court dismissed the petition for a writ of certiorari in Malvo,
pursuant to a stipulation of dismissal filed by the parties in that case. On March 9, 2020, the Court
granted the petition for a writ of certiorari in Jones v. Mississippi, No. 18-1259, which presents
the question “[w]hether the Eighth Amendment requires the sentencing authority to make a finding
that a juvenile is permanently incorrigible before imposing a sentence of life without parole.” Pet.
at i, Jones, supra (No. 18-1259). That question, like the question presented in the government’s
petition for a writ of certiorari in this case, concerns the proper scope of this Court’s decision in
Miller. Accordingly, the Court should hold the petition in this case pending its decision in Jones
and then dispose of the petition as appropriate in light of that decision.

Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

2

19-0720
USA
RILEY BRIONES, JR.

EASHA ANAND
ORRICK HERRINGTON & SUTCLIFFE LLP
THE ORRICK BUILDING
405 HOWARD STREET
SAN FRANCISCO, CA 94105
415-773-5837
EANAND@ORRICK.COM
MELAINE LYNN BOSTICK
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8483
MBOSTWICK@ORRRICK.COM
VIKKI M. LILES
LAW OFFICE OF VIKKI M. LILES
335 E. PALM LANE
PHOENIX, AZ 85004
605-252-2110
LILESLAW.MSN.COM

